No. 19-109
In the Supreme Court of the United States

GIOVANNI MONTIJO-DOMINGUEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

Brief of Amiens Curiae
Vermont Association of Criminal Defense Attorneys,
Connecticut Criminal Defense Attorneys Association,
New Mexico Criminal Defense Lawyers Association,
Oklahoma Defense Lawyers Association
In Support of the Petition for a Writ of Certiorari

Joshua S. O'Hara, Esq.
Vermont Defender General's Office
6 Baldwin St., 4th Floor
Montpelier, VT 05633-3301
802-828-3168
Counsel of Record

Paul S. Volk, Esq.
Kasey A. Emmons, Esq.
Blodgett, Watts & Volk, P.C.
72 Hungerford Terrace
Burlington, VT 05402-0008
802-862-8919
On The Brief

RECEIVED
AUG 27 2019
OFFICE OF THE CLEP.K
SUPREME COURT, U.S.

TABLE OF CONTENTS
Table of Authorities

iii

Interest of Amicus Curiae Vermont Association of Criminal Defense Lawye
rs,
Connecticut Criminal Defense Attorneys Association, New Mexico Crimi
nal
Defense Lawyers Association and Oklahoma Defense Lawyers Association

1

Summary of Argument

3

Argument
Conclusion

4
13

TABLE OF AUTHORITIES
Cases
Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed. 2d 435 (2000)

6

United States v. De La Torre, 599 F.3d 1198 (10th Cir. 2010)

10

United States v. Mejia-Pimental, 477 F.3d 111 (9th Cir. 2007)

11

United States v. Reynoso, 239 F.3d 143 (2d Cir. 2000)

10, 11

United States v. Schreiber, 191 F.3d 103 (2d Cir. 1999)

10, 11

United States v. Sherpa, 110 F.3d 656 (9th Cir. 1996)

11

United States v. Shrestha, 86 F.3d 935 (9th Cir. 1996)

12

United States v. Thompson, 76 F.3d 166 (7th Cir. 1996)

10

Statutes
18 U.S. §3553(f)

5, 8, 9, 11, 13

21 U.S.C. §841(b)(1)(A)

6

21 U.S.C. §841(b)(1)(B)

6

United States Sentencing Guidelines
U.S.S.G. §3E1.1(a)
U.S.S.G. §5C1.2

10
5, 8, 10

Treatises and Scholarly Articles
J.A. Wroth, Informant Witnesses and the Risk of Wrongful Convictions, 53 American
Criminal Law Review 737 (2016)

6

Sandra Guerra Thompson, Judicial Gatekeeping of Police - Generated Witnes
s
Testimony, 102 J. Crim. L. & Criminology 329 (2013)
National Association of Criminal Defense Lawyers, The Trial Penalty:
The Sixth
Amendment Right to Trial on the Verge of Extinction and How to Save It,
2018

-iv-

6
13

INTEREST OF AMICUS CURIAE VERMONT ASSOCIATION OF
CRIMINAL
DEFENSE LAWYERS, CONNECTICUT CRIMINAL DEFENSE
ATTORNEYS
ASSOCIATION, NEW MEXICO CRIMINAL DEFENSE LAWYERS
ASSOCIATION AND OKLAHOMA DEFENSE LAWYERS ASSO
CIATION
The Vermont Association of Criminal Defense Lawyers was establ

ished in

1991. It is the state affiliate of the National Association of Crimi
nal Defense
Lawyers. Most criminal defense practitioners within the State of

Vermont and

Federal District of Vermont are members of the Vermont Association

of Criminal

Defense Lawyers. The organization's primary roles are to promo

te the providing of

high quality, constitutionally sound professional representation

to individuals

accused of criminal activity in the State and District of Vermont;

to provide quality

training and continuing legal education seminars, programs and

materials; to send

deserving member attorneys to intensive training programs outsid

e of the State of

Vermont; and to monitor and comment on pending legislature and
changes. A large portion of the membership of the organization,

legislative

including officers,

directors and many past presidents, have a significant area of their

practice in the

Federal Court system. The issue upon which this Amicus Curiae
Brief
is a matter of serious, ongoing concern to the officers and directors

is submitted

of the Vermont

Association of Criminal Defense Lawyers, and particularly to those

members who

practice federal criminal defense.
The Connecticut Criminal Defense Attorneys Association ("CCDLA")

is a not-

for-profit organization of over three hundred lawyers who are dedic

ated to

defending persons accused of criminal offenses. Founded in 1988,
Pursuant to Supreme Court Rule 37.6, counsel for amici
represent that they authored this brief in its entirety and
that none of the parties or their counsel, nor any other
person or entity other than amici or their counsel, made a
monetary contribution intended to fund the preparation or
submission of this brief.

the CCDLA is the

only statewide criminal defense lawyers' organization in Connecticut. An affiliate
of the National Association of Criminal Defense Lawyers, the CCDLA works to
improve the criminal justice system by ensuring that the individual rights
guaranteed by the Connecticut and United States constitutions are applied fairly
and equally and that those rights are not diminished. CCDLA's members include
members of the Criminal Justice Act Panel, Federal Defenders and members of the
private federal defense bar, all of who represent federal criminal defendants for
whom the availability of the safety valve is an important issue.'
The New Mexico Criminal Defense Lawyers Association is a voluntary
membership organization whose members spend their time actively engaged in
practice on behalf of the accused in the state and federal courts. The NMCDLA's
mission is to advocate for fair and effective criminal justice in the courts, legislature
and community. NMCDLA members have advocated at trial, on direct appeal, in
post-conviction proceedings, and in civil rights actions on behalf of the actually
innocent.
The NMCDLA has no parent corporation and issues no publicly traded
securities.
The Oklahoma Defense Lawyers Association (OCDLA) is a private, nonprofit

'Pursuant to United States Supreme Court Rule 37(2), it is certified that
counsel of record received timely notice of intent to file this Amicus Curiae Brief.
By written notice dated August 15, 2019, Michael B. Kimberly, Esq., counsel for the
Petitioner consented to the filing of this Brief. By written notice dated August 21,
2019, counsel of record for the Respondent, the Office of the Solicitor General of the
United States consented to the filing of this Brief.
2

public association that represents more than 500 criminal defense attorneys in the
state of Oklahoma and surrounding states who are dedicated to preserving the rule
of law and individual rights guaranteed by the Oklahoma and Federal Constitution,
to resisting any efforts to curtail these rights, to furthering legal educational
programs, and to promoting justice and the common good. As such, the OCDLA
enthusiastically endorses this Amicus petition and brief dedicated to the
preservation of individual due process rights related to judicial use of the "safety
valve" provision/protection in regards to federal sentencing minimum guidelines for
defendants who do not accept a plea bargain, but prefer to exercise their Sixth
Amendment constitutional right to a fair trial.
SUMMARY OF ARGUMENT
There are numerous reasons for an accused defendant to assert his or her
constitutional right to a trial by jury that do not involve a defendant taking the
stand and entirely denying culpability. An accused defendant has the
constitutional right to require the Government to meet its burden to prove the
elements of each and every charged offense by proof beyond a reasonable doubt. It
is a fundamental precept of fairness in a constitutional criminal system that no
person should be punished unless their guilt is proven by the Government to a jury
beyond a reasonable doubt. Defendants frequently may choose to test the strength
of the Government's case without testifying untruthfully at trial.
Nothing in the federal safety valve statute or the applicable implementing
advisory sentencing guideline prohibits a sentencing court from applying the safety
3

valve provision and departing or deviating from an otherwise applicable mandatory
minimum sentence for a controlled substance conviction following a trial. The
Seventh and Ninth Circuits have correctly held that the language of the statute and
the implementing guideline allows application of the safety valve provision
regardless of how a defendant is convicted, so long as a defendant has met all
necessary statutory and implementing guideline criteria.
The issue and argument presented by the Petitioner in the instant case
relative to his petition for a writ of certiorari, and the analysis and discussion set
forth in Petitioner's petition, together with the analysis set forth herein, strongly
supports the granting of the petition for a writ of certiorari to the United States
Court of Appeals for the Tenth Circuit.
ARGUMENT
There are many reasons for an accused defendant to assert his or her
constitutional right to a trial. A number of them do not involve a defendant
actually taking the stand during trial and entirely denying culpability and guilt of
the charged offense. Frequently, on the advice of competent counsel, but making
the decision themself, a defendant may choose to exercise his or her constitutional
right not to take the stand and testify at trial.
First, the Sixth Amendment provides the clearest reason why a defendant
may choose to go to trial. The Government must convince a jury, beyond a
reasonable doubt, of the defendant's guilt. Very often a jury trial is a question of
whether the Government has the evidence it says it has, and whether a jury will
4

believe the Government's case. For a lower-level defendant with a minim
al

or

nonexistant record, this protection is vitally important. The safety valve

provision

should not be construed to undermine these bedrock principles. A lower

level

defendant, with a qualifying minimal prior criminal history, cannot

and should not

be punished, and denied any potential for post-trial safety valve relief

from either

the advisory United States Sentencing Guidelines range or any otherw

ise

applicable mandatory minimum sentence, because they have exercised

their

constitutional right to require the Government to meet its constitution

al obligation

relative to proof, before an accused person's life, liberty, or property,

or a portion

thereof, can be taken from them in the name of the Government. Such
more than arguably stands the constitutional right to a trial by jury

a denial

on its ear. It

also has no support in the safety valve statute, 18 U.S.C. §3553W, imple

menting

Guideline, U.S.S.G. §5C1.2, and commentary thereto.
Second, a defendant may choose to go to trial for other reasons, or in

addition

to this reason. Those include cases in which the Government arguab

ly has

overcharged the case, or charged numerous offenses in a multiple indict

ment, some

of which the Government may not be able to prove. A defendant and

counsel may

quite reasonably determine that the Government has overcharged the

offense,

particularly regarding offenses involving possession of a controlled substa

nce with

the intent to distribute, sale or delivery of a controlled substance, or

conspiracy to

possess a controlled substance with intent to deliver and/or conspiracy
deliver a controlled substance. This is particularly the case where, in
5

to sell or

the post

Apprendi v. New Jersey, 530 U.S. 466 120 S.Ct. 2348, 147 L.Ed. 2d 435 (2000)
regimen, the Government has charged an offense or offenses involving a thresho

ld

level of controlled substances which may trigger applicability of a mandatory
minimum sentence, which must be determined by a jury. See, e.g., 21 U.S.C.
§§841(b)(1)(A) and (b)(1)(B).
Third, a defendant may choose to go to trial to force the Government to prove
that it has credible and reliable witnesses. Frequently, a defendant, with the
assistance of competent counsel, may determine that some, or even all of the
Government's witnesses have substantial and significant credibility issues which
must be resolved by a jury. These issues may be based upon prior criminal
convictions that are available to impeach any such witness, or they may be based

on

witness' incentive and motive to testify, such as payment to an informant or
promises of leniency made by the prosecution in exchange for cooperation.
Numerous scholarly articles have been published regarding the potential inheren

t

unreliability of paid informant testimony, or testimony of individuals who have
quite literally a massive amount to gain by testifying in a manner supportive of

the

Government prosecution. See, e.g. J.A. Wroth, Informant Witnesses and the Risk
of
Wrongful Convictions, 53 American Criminal Law Review 737 (2016); Sandra
Guerra Thompson, Judicial Gatekeeping of Police - Generated Witness Testim
ony,
J. Crim L. Criminology 329 (2013). Frequently the Government and its attorne

ys

ultimately have a significant, and sometimes sole, unreviewable say regarding

the

amount of and type of leniency that a cooperating witness may receive in return
6

for

their testimony.
Fourth, an accused defendant may choose to go to trial for a variety of

other

factually based, good faith reasons. Those may include: a position that
the
Government, which frequently charges individuals with conspiracy to
various target controlled substance offenses, has, in fact, charged an

commit

individual who

may be culpable in some regard, with being a participant in an overly

broad and

overcharged conspiracy; or charges a defendant with playing an aggrav

ated role in

a conspiracy that is not, in fact, accurate; or that overstates the actual

acts and

omissions of a charged individual relative to a charged controlled substa

nce offense

or offenses conspiracy.
Fifth, a defendant may choose to exercise his or her trial rights where

they

have a good faith basis, in fact and law, to assert an affirmative defens

e. These

may include an asserted insanity, and in certain circumstances, dimin

ished

capacity, defense. In certain circumstances an accused may also choos

e to go to

trial to attempt to establish an entrapment defense; lack of sufficient

knowledge of

criminal/conspiratorial conduct; or in an appropriate case, a mistake

of law or

mistake of fact defense.
While the Government may prevail at trial, an eligible defendant should

be

permitted to apply for safety valve relief before sentencing by truthfu

lly providing

the Government all information he or she knows. A trial is not alway

s a test of

whether a case is to be believed. It is a test of whether the Government

's case is

sufficient to convict. A defendant should not be automatically banne

d from safety

7

valve relief merely because he or she exercised the

one right the constitution

guarantees, a trial.
While it is certainly possible, on a case by case basis

, that a judge reviewing a

safety valve application asserted by a post-trial defe

ndant may determine that the

defendant has not met all five safety valve criteria,
and circumstances of each case, it is by no means

based on the particular facts

an automatic or inevitable

conclusion that such a ruling must be issued, simp

ly because an accused defendant

has chosen to assert his or her constitutionally guar

anteed right to a trial, and right

to require the Government to meet its constitutional

ly mandated burdens of

production and persuasion at said trial, subject to

governing rules of evidence and

the proof beyond a reasonable doubt standard appl

icable to criminal trials by jury.

Nothing in the safety valve statute, 18 U.S.C. § 3553

(0, or the applicable

implementing advisory federal sentencing guideline

, U.S.S.G. § 5C1.2, prohibits a

sentencing court from applying the safety valve prov

ision and departing or

deviating from an otherwise applicable mandatory

minimum sentence for a

conviction following trial. The language of the safet

y valve statute and guideline

applies regardless of how a defendant is convicted

. The plain language of the

statute provides that: "the court shall impose a sente

nce pursuant to guidelines

promulgated by the United States Sentencing Com

mission . . .without regard to any

statutory minimum sentence, if the court finds at

sentencing, after the Government

has been afforded the opportunity to make a recomme

ndation," that the defendant

meets the five necessary criteria. 18 U.S.C. § 3553

(f) (emphasis added).

8

That the determination is to be made prior to sentencing and by the court,
not a jury, are most pertinent here. By the very nature of the federal criminal
process framework, a defendant who is convicted at trial may well be able to
demonstrate his or her qualification for safety valve prior to sentencing.
Specifically, and as is often the challenged factor, a defendant convicted at trial

may

nonetheless well be able to demonstrate that he or she "has truthfully provided

to

the Government all information and evidence the defendant has concerning the
offense or offenses that were part of the same course of conduct or of a common
scheme or plan. . . ." prior to and at sentencing. 18 U.S.C. § 3553(f)(5). The
beginning of subsection (f)(5) specifically states "not later than the time of
sentencing...." That places the time of compliance at least after conviction, and
plainly contemplates a conviction after trial. As may often be the case, the
defendant may have made such disclosure prior to trial. A defendant that goes

to

trial may have even participated in a safety valve proffer, and then elected, for

any

number of reasons, to go to trial nonetheless.
The statute is rather wide in scope and intended to be broadly applied for
qualifying defendants. For example, even where the information that the defend

ant

can provide is not useful, or is already known to the Government, it does "not
preclude a determination by the court that the defendant has complied with this
requirement." 18 U.S.C. § 3553(f)(5). As the determination is left to the court,

the

jury's verdict need not control. Neither the language of the applicable statute

, the

implementing federal sentencing guideline, nor its commentary, present any bar
9

to

a defendant raising, and being granted, safety valve relief following a jury verdict

.

For these reasons, the Seventh and Ninth Circuits properly apply the safety valve
provision to carry out its plainly intended purpose, while the Second and Tenth
Circuits do not. United States v. Reynoso, 239 F.3d 143 (2d. Cir. 2000);
United
States. v. De La Torre, 599 F.3d 1198 (10th Cir. 2010).
The Seventh Circuit explicitly permits a defendant, convicted after trial, to
qualify for safety valve relief. See United States v. Thompson, 76 F.3d 166
(7th Cir.
1996). In Thompson, the court upheld the district court's downward departu
re or
deviation based on U.S.S.G. §5C1.2 on the basis that the defendant disclosed all
information she knew, and based on how she understood it. Id. at 170-71 (analyz
ing
the case under both the Government's challenge to the district court's application

of

the safety valve provision and acceptance of responsibility pursuant to U.S.S.G
.
§3E1.1(a)). Interestingly, the Second Circuit similarly concluded that to meet

the

requirements of subsection five, a defendant need not have been truthful and
complete from the beginning, so long as such truthful and complete information

is

made known prior to sentencing. See United States v. Schreiber, 191 F.3d 103,
108-09 (2d Cir. 1999) (lies and omissions do not disqualify defendant from safety
valve relief so long as defendant makes complete and truthful proffer not later

than

commencement of sentencing hearing.) It seems contradictory, then, to sugges
t that
a defendant who elects to exercise his or her right to a trial becomes automatically
ineligible for safety valve relief at sentencing solely because there was a trial.
Second Circuit, in United States v. Reynoso, a case involving a plea, further
10

The

contradicted this reasoning by declining to apply the safety valve provis

ions in the

defendant's case where she provided false information to the Government

, but also

proffered an expert opinion that based on her drug addiction and histor

y she was

not able to appreciate that her statements were untrue. Nonetheless

, she had

provided the information as she understood it. See 239 F.3d 143, 143-4

6 (2d Cir.

2000).
In another case, including reliance on Schreiber, supra, the Ninth

Circuit

stated:
Nothing in the statute suggests that a defendant is automatically
disqualified if he or she previously lied or withheld information.
Indeed, the text provides no basis for distinguishing among defendants
who make full disclosure immediately upon contact with the
government, defendants who disclose piecemeal as the proceedings
unfold, and defendants who wait for the statutory deadline by
disclosing "not later than" sentencing.
United States v. lifejia-Pimental, 477 F.3d 1100, 1105-06 (9th Cir. 2007)
. The
Ninth Circuit highlighted the point that even defendants that maint

ain their

innocence or opt to exercise their trial rights (often on some other theory

of defense,

like lack of knowledge) may be candidates for safety valve relief after

a guilty

verdict. See United States v. Sherpa, 110 F. 3d 656 (9th Cir. 1996). In

so doing, the

Court noted:
"Section 3553(f) requires a determination by the judge, not the jury,
as to the
satisfaction of the five underlying criteria. This is no accident. The judge
is
privy to far more information than the jury and is therefore in a much
different posture to assess the case and determine whether the defend
ant
complies with § 35530."
Id. at 660 (emphasis supplied).
11

Taking this analysis a step further, in another case, the Ninth Circu

it held

that even a defendant who confesses, recants that confession durin

g his trial

testimony and is convicted, may be eligible for a downward depar

ture/deviation

from an otherwise applicable mandatory minimum sentence, based

on the safety

valve provision. Specifically, the Ninth Circuit held that the defen

dant's initial

confession had satisfied the fifth element that he had truthfully

provide all

information to the Government. See United States v. Shrestha, 86

F.3d 935, 937-40

(9th Cir. 1996). While the Court left open whether a defendant who

provides such

information only at sentencing similarly qualifies, it concluded,that

when such

information is earlier disclosed, the defendant remains eligible.

/dat 940 f.n. 5.

The reality that federal criminal prosecution involves a number of

moving

parts, including preparation for trial, while simultaneously partic

ipating in plea

negotiations and potential safety valve proffers, are exactly why

the Seventh and

Ninth Circuits' applications of the safety valve provision make the

most sense. The

Second and Tenth Circuit approaches essentially and unjustly furthe

r penalize a

defendant for exercising their constitutional right to a trial. In a

troubling trend

observed by many, there has been a recent continuing decrease in

the number of

federal criminal cases taken to trial.
On a nationwide scale, across all circuits, there has been a substa

ntial

decrease in the percentage of cases that go to trial. In 1970, fifteen
federal cases were making it to a trial; by 2015, this number was

12

percent of

down to just 2.9

percent. National Association of Criminal Defense Lawyers, The Trial Penalty: The
Sixth Amendment Right to Trial on the Verge of Extinction and How to Save It,
www.nacdl.org/trialpenaltyreport, 2018, at 5, f.n. 2. A contributing factor to this
decline includes the application of the safety valve provision as currently
interpreted in the Second and Tenth Circuits—at some point, it simply isn't worth
the risk for a defendant to take his or her case to trial. A number of defendants who
may otherwise wish to challenge the Government's case, confront the witnesses
against them, or raise other valid defenses—particularly ones beyond mere
innocence—are further punished for doing so. A proper reading and interpretation of 18 U.S.C.
§3553(f) and the Guidelines, as exists in at least the Seventh and Ninth Circuits, is not only the
fair application of the safety valve provision, it is the only constitutionally sound one.
CONCLUSION.
Based upon the analysis and authorities set forth in the pending Petition for
a Writ of Certiorari, and the reasons, rationale and analysis set forth herein,
respectfully, this Honorable Court should grant the Petitioner's pending Petition for
a Writ of Certiorari.
DATED at Montpelier, Vermont this Al

kk

day of August, 2019.

Respectfully submitted,

Jos•li a S. O'Hara, Esq.
Vermont Defender General's Office
6 Baldwin Street, 4'1' Floor
Montpelier, VT 05633
13

On the Brief:

/

.
cc,

Paul S. Volk, Esq., Kasey A. Emmons, Esq.
Blodgett, Watts & Volk, P:a.
72 Hungerford Terrace
Burlington, VT 05401

14

